                                  NATIONAL SCIENCE FOUNDATION
                                        4201 Wilson Boulevard
                                      ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




  MEMORANDUM

  Date:

  To:               Mary F. Santonastasso
                    Division Director, Division of Institution and Award Support
                    (BFAJDIAS)

                    Karen Tiplady
                    Division Director, Division of Grants and Agreements (BFAIDGA)

  From:             James J. Noeth


  Subject:          OIG Report Number 08-1 -005
                    Audit of Labor Effort Reporting System, University of Illinois at
                    Urbana-Champaign

         Attached is the final report prepared by Mayer Hoffman McCann, P. C., an
 independent public accounting firm, on the audit of the payroll distribution and labor
 effort reporting system used by the University of Illinois at Urbana-Champaign (UI) to
 support salary and wages charged to NSF grants. The University's comments to the draft
 report have been summarized after the recommendations for each audit finding and the
 auditor's response has been provided to these comments. The full text of the University's
 comments is included as an Appendix to the audit report.

         The audit found that UI generally has a well established Federal grants
 management program. However, the University needs to improve its internal controls
 over the labor effort certification process to ensure the reliability of the after-the-fact
 confirmation of actual salary charges to Federal awards. Without timely or appropriate
 controls for certifying labor effort confirmation reports, UI has less assurance the
 confirmations are reliable and reasonably support salaries and wages charged to NSF's
 sponsored projects.

        We consider UI's internal control procedural weaknesses identified in the audit
 findings to be significant. Accordingly, we request that your office work with the
University and the cognizant audit agency, the Office of Naval Research (ONR), to
develop a written Corrective Action Plan detailing specific actions taken and/or planned
to address each audit recommendation. Milestone dates should be provided for corrective
actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance
ofithe audit report pursuant to Office of Management and Budget Circular A-50, please
coordinate the development of the Corrective Action Plan with our office during the
resolution period. Each audit recommendation should not be closed until NSF, in
coordination with ONR, determines that UI has adequately addressed the
recommendation and proposed corrective actions have been satisfactorily implemented.
Please note that we have sent a copy of the subject audit report under separate cover to
Ms. Debbie Rafi, Director of the Indirect Cost Branch, at ONR.

OIG Oversight of Audit

       To fulfill our responsibilities under Generally Accepted Government Auditing
Standards, the Office of Inspector General:

       Provided a detailed performance audit program and ensured Mayer Hoffman
       McCann's approach and planning for the audit was appropriate;
       Evaluated the qualifications and independence of the auditors;
       Monitored progress of the audit at key points and accompanied Mayer Hoffman
       McCann auditors onsite at the grantee, as considered necessary;
       Had periodic meetings with Mayer Hoffman McCann to d.iscuss audit progress,
       findings, and recommendations;
       Reviewed the audit report and selected audit work papers, prepared by Mayer
       Hoffman McCann, to ensure compliance with Generally Accepted Government
       Auditing Standards and the NSF audit program; and
       Coordinated issuance of the audit report.

        Mayer Hoffman McCann is responsible for the attached audit report of UI's
payroll distribution and labor effort reporting system and the conclusions expressed in the
audit report. The NSF OIG does not express an opinion on the audit report's conclusions.

       We appreciate the cooperation extended to us during our review. If you have any
questions, please feel free to call me at 703-292-5005 or Jerel Silver at 703-292-8461.

Enclosure

cc:    Gilbert Tran, Technical Manager, Office of Management and Budget
       Thomas Cooley, Director and Chief Financial Officer, BFAIOAD
       Alexander Wynnyk, Branch Chief, BFAIDIAS
       Charles Zeigler, Special Assistant, BFAJDIAS
 Audit of Labor Effort Reporting System
University of Illinois at Urbana-Champaign




       National Science Foundation
       Office of Inspector General


                March 27, 2008
                OIG 08-1-005




                Audit Performed by:

            Mayer Hoffman McCann P.C.
             Certified Public Accountants
         12761 Darby Brooke Court, Suite 201
             Woodbridge, Virginia 22192
               Phone: (703) 491-9830
                Fax: (703) 491-9833
                                      EXECUTIVE SUMMARY

        This audit report provides the results of our review of the payroll distribution and labor
effort reporting system used by the University of Illinois- Urbana (UI) to support salaries and
wages charged to National Science Foundation (NSF) grants. In fiscal year 2006, UI had total
Federal research and development grant expenditures of $259 million, of which $89 million was
directly funded by NSF. Of this amount, over $29.5 million or 33 percent was for labor costs
directly charged to NSF grants. This audit is one of a series of Office of Inspector General
(OIG) reviews of the labor effort distribution systems being conducted at NSF’s top-funded
universities in order to assess the adequacy of internal controls to ensure salary and wage costs
claimed on NSF grants are properly managed, accounted for, and monitored.

        Our review disclosed that UI generally has a well established and sound Federal grants
management program. It has developed grants management policies, procedures, and practices
over the years for administering its payroll distribution and labor effort reporting system and
provided grants management training to campus personnel to provide an operational framework
to assure adherence with Federal and campus grants management policies and procedures. Our
review of 30 sampled employees1 disclosed UI’s Expenditure Confirmation Reports generally
support the FY 2006 salary costs of $799,068 directly charged to NSF grants.

        However, UI needs to improve its controls over the labor effort certification process to
ensure the reliability of the after-the-fact confirmation of actual salary charges to Federal awards.
While the payroll distribution and labor effort reporting system accounts for 100 percent of each
employee’s work activities, UI does not provide such information to certifying officials during
the labor certification process to ensure that labor costs charged to NSF grants are reasonable and
equitable relative to the employee’s other sponsored and non-sponsored activities. In addition,
certifying officials approved late 49 of 77 Expenditure Confirmation Reports by 1 to 205 days
beyond the University established due dates, representing 61 percent of the NSF salary charges
reviewed. Also, UI has not performed the Federally-required independent internal evaluation to
ensure the system’s effectiveness, forfeiting an opportunity to identify and address any needed
improvements.

        As a result, UI has less assurance that the principal investigator (PI) certifications are
reliable and reasonably support salary and wage charges to Federally-sponsored projects.
Without knowledge of total employee workload information, there is increased risk of potential
misallocation of salary costs to NSF projects. In addition, late certification of NSF labor charges
diminishes reliability as time increases past the established UI certification date. Given the
material amount of $29.5 million of UI labor costs charged to NSF grants, or approximately one-
third of total NSF grant expenditures in FY 2006, improved internal controls are warranted to
enhance the reliability and integrity of the University’s labor certification process.

       These weaknesses occurred because UI believed that certifying officials did not need to
know the level of effort employees expend on all work activities in order to correctly certify the
reasonableness of direct labor charges to NSF sponsored projects. Therefore, even though such
employee workload information was available, the University did not have procedures to ensure
1
       The sample of 30 employees was statistically selected by a statistician engaged by the NSF-OIG.


                                                       i
certifying officials were provided and utilized such information during the labor confirmation
process. In addition, UI has not instituted formal written timeliness standards or assigned clear
senior management accountability to ensure timely PI review and certification of Expenditure
Confirmation Reports. Further, the University has not performed the required evaluations of the
payroll distribution and labor effort reporting system because it believed that the annual Office of
Management and Budget (OMB) Circular A-133 audit fulfilled the Federal evaluation
requirement.

        To address these control weaknesses, recommendations were made to improve the
effectiveness and timeliness of its labor effort confirmation process. The recommendations were
primarily directed at the need for (a) certifying officials to utilize total employee workload
information when reviewing and confirming the reasonableness of actual salary costs to
Federally-sponsored projects, (b) instituting formal written standards to improve the timeliness
of PI certifications of Expenditure Confirmation Reports, and (c) establishing formal procedures
for performing independent evaluations of its payroll distribution and effort reporting system, as
required by Federal regulations.

        A draft report requesting comments on the audit findings and recommendations was
issued to UI. In general, the University was receptive to the audit recommendations. However,
while its proposed corrective actions were appropriate, the actions did not always address the full
intent of all the audit recommendations. Specifically, while UI agreed to provide PIs access to
total employee workload information in its new web-based electronic labor confirmation system,
it needs to establish procedures ensuring the PIs use this information when confirming actual
labor costs to Federally-sponsored projects. Additionally, while UI agreed to have the Office of
University Audits continue to include the labor effort reporting system in its risk assessment
process for developing its Annual Audit Plan, the University needs to establish an explicit
requirement in its written policy and procedures for the Federally-required evaluation of the
system. Written policy and procedures are a critical element to a sound UI internal control
structure for proper management and administration of its Federal grant program. Therefore,
NSF should work with the cognizant audit agency and UI to ensure the University develops an
acceptable corrective action plan to implement each audit recommendation.




                                                 ii
                                   Table of Contents


                                                                Page


Executive Summary                                                       i

Introduction

    Background                                                          1
    Objectives, Scope, and Methodology                                  2

Finding and Recommendations

    Internal Control Improvements Needed for the Labor Effort           5
    Reporting System

    Recommendations                                                    14


Appendix

    University of Illinois’ Comments to Draft Report                   17




ACRONYMS

ARS            Activity Reporting System
FY             Fiscal Year
GCO            Grants and Contracts Office
NSF            National Science Foundation
OIG            Office of Inspector General
OMB            U.S. Office of Management and Budget
ONR            U.S. Office of Naval Research
PI             Principal Investigator
UI             University of Illinois, Urbana Campus




                                             iii
                                              INTRODUCTION

Background
        Approximately one third of the National Science Foundation (NSF) award funds are
provided for salary and wages, amounting to about $1.3 billion annually at universities. In recent
years, there have been several civil settlements involving overcharges of labor costs to Federal
grants, amounting to millions of dollars at several major universities, including some funded by
NSF. Because of these legal actions and the material amounts of labor costs paid from NSF
awards, the Office of Inspector General (OIG) is undertaking a series of reviews of the labor
effort distribution systems at NSF’s top-funded universities in order to assess the adequacy of
internal controls to ensure salary and wage costs claimed on NSF grants are properly managed,
accounted for, and monitored. This review, involving the University of Illinois, Urbana, is one
in a series of our planned audits of such labor effort distribution systems.

        The University of Illinois, founded in 1867, is a world leader in research, teaching, and
public engagement, distinguished by the breadth of its programs, broad academic excellence, and
internationally renowned faculty. The U. S. News & World Report's America's Best Colleges
rated UI as the eighth best public University in the nation. The University’s main campus is
located in Urbana and additional campuses are located in Chicago and Springfield. In fiscal year
(FY) 2006, the student body at the Urbana campus was comprised of almost 31,000
undergraduate and over 11,000 graduate and professional students. The campus has 16 colleges
and instructional units, which includes a medical school.

        In fiscal year 2006 2, the University of Illinois had a total operating budget of $3.2
billion, of which more than $668 million was dedicated to research. The Urbana campus had a
total operating budget of $1.4 billion, of which more than $316 million was dedicated to
research. Specifically, $259 million was provided by the Federal Government, $27 million from
the state and $30 million from other sponsors, including private companies. Of the Federal
research funds, NSF provided over $89 million or about one-third of the total; of which $29.5
million or 33 percent was for salaries and wages. UI had 2,928 faculty members, 3,190
administrative and professional staff, 4,467 support staff, and 6,048 graduate assistants.

       UI’s Office of Business and Financial Services supports the business and financial
operations of the University and assists departments in their daily operations including
administering sponsored projects. Specifically, the Grants and Contracts Office (GCO) is tasked
with assuring compliance with Federal requirements such as confirming that salaries and wages
charged to Federal awards are reviewed and certified to be accurate by appropriate officials.
Each University Department has a Department Chair who serves as the executive officer and has
general responsibility for promoting the scholarly and research activities of the faculty. Also, the
Department Chair has the responsibility for securing and retaining faculty and staff members and
recommending tenure and promotions.



2
    UI fiscal year begins on July 1 and ends on June 30.


                                                           1
         In most Departments, a business manager serves as the liaison with GCO. The business
manager is the key official in administrative matters for sponsored projects and is responsible for
ensuring: a) awards and their budgets are accurately created in the University’s financial system;
b) awards are monitored on a monthly basis, and c) principal investigators (PI) are provided
assistance to ensure grant charges are appropriate. However, the PIs have primary responsibility
for all aspects of sponsored projects; including the approval of all grant charges and ensuring the
research is conducted in accordance with all award terms and conditions. As such, the PIs
review the accuracy of all employee labor costs recorded on monthly financial reports for
sponsored projects.

       UI documents and certifies labor costs charged to sponsored projects on a form known as
an Expenditure Confirmation Report (Confirmation) for each six-month effort reporting period.
The Confirmation reports are generated for PIs and list the total aggregate labor costs for all
employee salary charges to each sponsored project. However, UI does not identify the names of
the employees on the Confirmation reports. The PI or other designated certifying official is
required to certify the accuracy of the aggregate labor costs reported on the Confirmation report.

Objectives, Scope, and Methodology
        Audit Objectives. The audit objectives were: (a) to evaluate whether UI internal controls
are adequate to properly manage, account for, and monitor salary and wage charges to NSF
grants in accordance with OMB and NSF grant requirements and (b) to determine if salary and
wage charges are allowable, allocable, and reasonable in accordance with Federal cost principles
and NSF grant terms and conditions.

        Scope and Methodology. The audit focused on the UI payroll distribution and labor
effort reporting system and accordingly reviewed internal controls for ensuring that labor costs
charged to NSF (i) were actually incurred, (ii) benefited NSF awards, (iii) were accurately and
timely recorded and charged to NSF, and (iv) were for allowable and allocable-type activities as
required by Federal and NSF requirements. In addition, we evaluated if the level of PI effort
pledged in grant proposal and award documents was actually contributed by the faculty member
to accomplish award objectives.

         To address each of these control objectives, the OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The use of
statistical tools and methodology will enable projecting our audit results to the entire population
of universities to be included in the OIG planned reviews of payroll distribution systems
nationwide. However, due to the small statistical sample size of 30 employees tested, we are not
able to make any projections to the total UI population of labor costs charged to NSF grants.
Specifically, the FY 2006 salary costs for the 30 employees tested amounted to $799,068 and
were supported by 77 Confirmations.3 Our statistical sample was derived from a total population
of 2,211 UI employees who charged $29.5 million of FY 2006 salaries to NSF awards. This
population excluded (a) any employee with total salary costs of $100 or less and (b) all salary


3
          Confirmation reports are prepared twice a year on December 31 and June 30. However, some employees’
salaries are listed on more than one report because they worked on multiple sponsored projects for different PIs.


                                                        2
charges for undergraduate students. These amounts were excluded because of their small dollar
value and the difficulty in locating undergraduate students for personal interviews.

        We compared UI policy and procedures to Federal and NSF requirements for allocating
labor costs to Federal awards and interviewed key University personnel to gain an understanding
of the controls in place to ensure salary and wages charged to NSF awards were allowable,
reasonable, and allocable. For each statistically selected salary record, we obtained the following
documentation to determine whether labor costs UI charged NSF awards met the control
objectives:

       a. PI Confirmations certifying the total aggregate labor costs charged to each NSF
          award during the effort reporting period.

       b. Monthly financial reports for each NSF award listing total expenditures including
          individual employee salary charges.

       c. Activity Reporting System (ARS) reports documenting 100 percent of activities an
          employee is expected to work on during the year.

       d. Appointment letters or other documents supporting the approved salary for
          employees.

       e. Personnel activity reports documenting for each employee their salary and wage
          transactions charged or credited to sponsored projects and all other activities during
          each effort reporting period.

       f. Award document to determine whether the award had any terms and conditions that
          would affect allowable labor charges to the award.

       To ensure that salaries charged to NSF awards were actually incurred and benefited NSF
awards, we verified the information on the Confirmation and ARS reports by interviewing the 30
sampled employees. We inquired whether (a) the labor charges documented were actually
incurred on projects and activities, (b) the approximate percentage of effort actually worked on
each sponsored project and/or activity was reasonably consistent with NSF labor charges, and (c)
the type of work performed on NSF projects was generally consistent with the scope of the
awards.

        In determining whether labor costs were accurately recorded and charged to NSF, we
compared the salary amounts in appointment letters or other documents supporting salaries and
wages to the salary amounts recorded in the personnel activity report for each employee in our
selected sample. We verified whether the appointment was for nine months or 12 months and
verified that salary charges were for the time period represented in the Confirmation reports.
Also, labor transactions were reviewed to determine whether UI followed Federal, NSF and
campus requirements for charging salaries and wages to NSF awards.




                                                3
        Furthermore, we interviewed selected PIs and business managers to ascertain the
processes used for verifying actual employee work performance prior to certifying Confirmation
reports at the end of each six-month reporting period. PIs were asked (a) about the number of
projects and personnel they were responsible for and how they validated actual work effort on
sponsored awards and other activities and (b) to describe the monthly process used to validate
the salaries and wages charged to NSF awards. Similarly, we ascertained the role of Department
business managers in the labor confirmation process and reviewed the various types of
supporting documentation which they provided to PIs during the process.

       To determine whether UI officials certified Confirmation reports in a timely manner, we
compared the date the Confirmation reports were distributed to the date the reports were certified
and returned. Timeliness was based on the due dates specified in the GCO transmittal letters
sent to each Department distributing the applicable Confirmation reports for each PI with
sponsored projects.

         Finally, we reviewed prior audit reports on UI’s Federal grants management program
performed by its OMB Circular A-133 auditors4 in the past three years to determine whether
there were any audit findings and recommendations on labor effort reporting. Review of the
A-133 audit working papers is performed to ascertain the actual audit scope and procedures used
by the auditors in order to (i) preclude any duplicative audit work and (ii) to determine the
specific work performed on the labor effort reporting system. Accordingly, we reviewed the FY
2005 audit working papers, the most current A-133 audit completed at the time of the review,
and interviewed the cognizant Senior Audit Manager to gain an understanding of the scope and
procedures used to review the University’s payroll distribution and labor effort reporting system.
Based on our review, we determined whether the scope of the A-133 audit was sufficient to
fulfill the Federal requirement for an “independent internal evaluation” to ensure the system’s
effectiveness and compliance with Federal cost principles.

        Onsite audit work was performed on the UI campus in late November 2006 and January
2007. The remainder of the audit work was completed through phone interviews, emails, and
documentation requests through October 2007. We were engaged to perform the above audit
objectives by the Office of Inspector General, National Science Foundation and our audit was
conducted in accordance with the Comptroller General’s Government Auditing Standards and
accordingly included such tests of accounting records and other auditing procedures, as we
considered necessary, to fully address the audit objectives.




4
       OMB Circular A-133 is entitled, Audits of States, Local Governments, and Non-Profit Organizations.


                                                     4
                         FINDING AND RECOMMENDATIONS

Internal Control Improvements Needed for the Labor Effort Reporting System

        Federal regulations require salary and wages be supported by labor effort reports signed
and approved by the employee or an official who is in a position to know whether the work was
performed. The payroll distribution and labor effort reporting system must be incorporated into
the official records of the university and encompass “on an integrated basis” all sponsored and
other activities for which the university compensates an individual. Further, the regulations
require universities to provide effective control and accountability for all funds and employ
sound management practices in the fulfillment of its Federal obligations. As such, awardees
must establish and maintain internal controls that are designed to reasonably ensure compliance
with Federal laws, regulations, and program compliance. Additionally, while Federal standards
do not specify when a labor effort report should be completed, university officials should provide
the after-the-fact confirmation as close to the end of the reporting period as possible to help
ensure its reliability.

        Our review of 30 sampled employees disclosed that UI Confirmation reports generally
support the FY 2006 salary costs of $799,068 directly charged to NSF grants. However, UI
could improve controls over its labor effort certification process to ensure the reliability of the
after-the-fact confirmation of actual salary charges to Federal awards. Our review disclosed the
following control weaknesses:

   •   Certifying officials are not provided the necessary information on total employee work
       activities on an integrated basis to help ensure that the confirmation of labor costs
       charged to NSF grants is reasonable and equitable relative to the employee’s other
       sponsored and non-sponsored activities.

   •   UI certifying officials approved late 49 of 77 Confirmation reports by 1 to 205 days
       beyond the University established due date, representing 61 percent of the NSF salary
       charges reviewed.

   •   UI has not performed independent internal evaluations of its payroll distribution and
       effort reporting system, as required by Federal regulations, to evaluate the system’s
       effectiveness and compliance with Federal standards.

        As a result, UI has less assurance that PI certifications are reliable and reasonably support
salary and wage charges to Federally-sponsored projects. Without knowledge of total employee
workload information, there is increased risk of potential misallocation of salary costs to NSF
projects. In addition, late certification of NSF labor charges diminishes reliability as time
increases past the established UI certification date. Given the material amount of $29.5 million
of UI labor costs charged to NSF grants, or approximately one-third of total NSF grant
expenditures in FY 2006, improved internal controls are warranted to enhance the reliability and
integrity of the University’s labor certification process.


                                                 5
        These weaknesses occurred because UI grants management officials believed that
certifying officials did not need to know the level of effort employees expend on all work
activities in order to correctly certify the reasonableness of direct labor charges to NSF
sponsored projects. Therefore, even though total employee work activity information is
available in the University’s payroll distribution system, it was not routinely provided to
certifying officials during the labor confirmation process. Furthermore, UI has not established
formal written timeliness standards or assigned clear senior management accountability to ensure
timely confirmation of NSF salary charges. Additionally, the University has not performed the
required independent internal evaluations of its system to ensure effective because it believed
that the annual OMB Circular A-133 audit fulfilled the Federal evaluation requirement.

OMB Requirements for Labor Effort Reporting

         OMB Circular A-21, Cost Principles for Educational Institutions, requires certification of
labor effort/activity contributed by employees on Federal awards. Specifically, paragraph
J10.b.(2) requires a payroll distribution system that will “…reasonably reflect the activity for
which the employee is compensated by the institution; and encompass both sponsored and all
other activities on an integrated basis…”. The Circular allows direct activity charges to be made
initially to sponsored projects on the basis of estimates made before the services are performed,
but requires “after the fact confirmation or determination so that costs distributed represent
actual costs.” In addition, the payroll distribution system must “allow confirmation of activity
allocable to each sponsored project and each of the categories of activity needed to identify F &
A [facilities and administrative] costs and the functions to which they are allocable.” The
Circular requires that the University provide for independent internal evaluations to ensure the
system’s effectiveness and compliance with Federal standards.

        Further, OMB Circular A-21 recognizes that “Each institution, in fulfillment of its
obligations, should employ sound management practices” 5 in applying the Federal cost
principles for charging costs on sponsored projects. Consistent with this requirement, other
OMB regulations require universities to provide for adequate stewardship of Federal grant funds
and to establish and maintain internal controls designed to reasonably ensure compliance with
federal laws, regulations, and program compliance as follows:

    •   OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
        With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
        requires a grantee’s financial management system to provide for “Effective control over
        and accountability for all funds, property and other assets.” 6

    •   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
        Organizations, requires a recipient institution to “maintain internal control over Federal
        programs that provides reasonable assurance that the auditee is managing Federal

5
        Paragraph A.2.d. of OMB Circular A-21, Cost Principles for Educational Institutions.
6
        Subpart C, Standards for Financial Management Systems, Paragraph .21(b)(3) of OMB Circular A-110,
Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations.


                                                       6
         awards in compliance with laws, regulations, and provisions of contracts or grant
         agreements . . .” 7 Internal control is considered a major part of managing an
         organization and comprises the plans, methods, and procedures used to meet missions,
         goals, and objectives. Management sets the objectives, puts the control mechanisms in
         place, and monitors and evaluates whether the controls are operating as intended.

        Accordingly, UI is responsible for establishing and maintaining adequate internal control
processes to provide reasonable assurance that employee salaries and wages charged to NSF
grants represent actual effort devoted to the projects and were equitable in relationship to the
individual’s other sponsored and non-sponsored activities. Sound internal control requires the
University to periodically evaluate its control mechanisms to determine if management
objectives are being effectively and efficiently achieved as circumstances change over the years.
Internal control is a dynamic process to meet an entity’s changing needs, thus monitoring and
evaluation tools are a key control component for ensuring proper UI stewardship of Federal grant
funds.

Certifying Officials Not Provided Total Employee Work Activities When Certifying Labor
Effort Devoted to NSF Grants

        Pursuant to the OMB requirements, UI’s payroll distribution and labor effort reporting
system accounts for 100 percent of each employee’s sponsored and non-sponsored work
activities as required by Federal standards and provides controls to preclude overcharges of total
employee labor costs. However, such employee workload information is not provided to PIs
during the certification process when they are confirming the reasonableness of direct salary
charges to individual Federal grants, including NSF sponsored projects. Specifically, the
University documents labor costs charged to Federally-sponsored projects on a form known as
an Expenditure Confirmation Report for each six-month effort reporting period. 8               The
Confirmation report aggregates labor charges into a single salary amount for all employees
working on each sponsored project for which the researcher is responsible. The PI’s
confirmation of such aggregate labor charges relies on the researcher’s prior review of monthly
financial reports, which include salary and wage charges for each employee working on the
sponsored project. However, because neither the Expenditure Confirmation Report nor the
monthly financial reports include total employee workload information, the PI confirms the
reasonableness of the aggregate salary amount without having knowledge of the employee’s
proportionate share of NSF labor costs relative to the salary amounts allocated to the individual’s
other sponsored and/or non-sponsored work activities.

       Payroll Distribution System - UI allocates employee salaries and wages to sponsored and
non-sponsored activities in their financial management system on the basis of estimates made
before services are performed and the resulting allocations can be displayed for each employee in

7
        Paragraph .300 (b) of OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations.
8
          UI has two effort reporting periods, a fall period and a spring period. The fall period covers the first half of
the University’s fiscal year from July 1 through December 31 and the spring period covers the second half of the
fiscal year from January 1 through June 30.


                                                            7
the Activity Reporting System (ARS). ARS reports reflect the distribution of 100 percent of an
employee’s work activities to the various categories for which the individual is compensated
such as Instruction, Departmental Research, Organized Research, etc. UI’s payroll distribution
system has controls in place to ensure that salaries allocated to the various work activities do not
exceed 100 percent of an employee’s total salary amount. While UI grants management officials
stated that ARS reports are available online, the reports are not specifically provided to PIs
during any portion of the labor effort certification process.

        Monthly Financial Reports - UI’s financial management system generates monthly
financial reports for each sponsored project that provide a full accounting of all direct grant
costs, including a list of labor charges for each employee working on the project. The PIs are
required to review such labor charges for reasonableness and accuracy and to initiate any
adjustments, if needed. However, UI procedures do not require the PIs to document their review
of the monthly grant expenditure reports, thus we were not able to independently validate if PIs
had actually performed the required reviews. Also, the monthly reports do not provide
information on salary allocated and/or work effort devoted by the employee to other sponsored
projects or non-sponsored activities on an integrated basis for which the individual is
compensated by the University. Only by providing the PI with a full accounting of an
employee’s labor effort on all activities can the PI ensure the reasonableness of the portion of
labor costs charged to his particular research award.

        UI’s Grants and Contract Office (GCO) officials stated that there are separate monthly
financial reports that account for employee labor charges for non-sponsored activities. These
reports are used to support UI’s facility and administrative cost studies for negotiating its Federal
indirect cost rate and according to GCO officials, are reviewed and verified by cognizant
Department officials, as needed. However, such administrative officials are not in a position to
know whether such employee labor costs allocated to non-sponsored activities represent actual
effort devoted because they are not in a supervisory position to have first hand knowledge of an
employee’s work activities.

        Expenditure Confirmation Reports - GCO generates an Expenditure Confirmation Report
for each PI with direct charges to sponsored projects during the six-month effort reporting period
and distributes the reports to each Department for PI review and certification. Each PI receives
one Confirmation report listing each of their sponsored projects individually with the total direct
grant charges segregated between salaries/wages and all other direct costs. The Confirmation
reports aggregate salaries into a single-line amount for all employees that worked on the
sponsored project. The subject reports do not provide any further breakdown of employee salary
because PI certifications are based on prior review of the monthly grant financial reports.
However, similar to the monthly financial reports, the Confirmation reports do not provide any
workload information on employee salaries and/or effort devoted to other work responsibilities
and activities during the effort reporting period.

        For example, a xxxxxxxxxxxxxxxxx, who charged $32,550 of salary costs to a NSF
grant, stated that xx split his time and effort equally between the NSF and a Department of
Energy (DOE) grant during FY 2006. The two Federal grants were managed by two different




                                                 8
PIs in different UI Departments. UI had the following documentation supporting the salary
charges to the Federal grants:

       •   The ARS report listed the employee’s 50 percent labor allocation to each of the two
           Federal grants. However, UI procedures did not require the ARS report be provided
           to PIs either during the review of the monthly financial reports for each sponsored
           project or the Expenditure Confirmation Report at the end of each six-month
           reporting period.

       •   The monthly financial reports reviewed for the NSF grant listed the Senior Research
           Scientist’s name and associated monthly salary charge of approximately $2,720 and
           the monthly salary and/or tuition remission costs for 15 other individuals working on
           the NSF project.

       •   The Expenditure Confirmation Report for each six-month reporting period listed the
           aggregate salary charges for the Senior Research Scientist and 15 other employees of
           $129,521 and $161,531 for the NSF grant along with similar charges for four
           additional Federal grants for which the PI was responsible. The names of the Senior
           Research Scientist and other 15 employees working on the NSF and other Federal
           projects were not identified on the Confirmation reports.

       The PI certified that the aggregate salary charges of $129,521 and $161,531 on the
Expenditure Confirmation Report “reasonably reflect the work effort or activity for each
individual who was compensated during the period…” for the NSF project without being
provided the ARS workload information on the xxxxxxxxxxxxxxxxxxxx, effort and/or salary
amounts allocated to other sponsored and/or non-sponsored activities. However, without
knowing the employee’s effort devoted or salary allocated to the DOE grant, the PI did not have
the information required to ensure that the salary amount charged to the NSF grant was
reasonable relative to the individual’s work on the DOE grant.

Increased Risk for Misallocation of Labor Costs to NSF Grants

        Because certifying officials are not provided total employee workload information during
the labor confirmation process, UI is operating at increased risk of PIs unknowingly
misallocating labor costs to NSF awards. Without integrated workload information, PIs lack a
valid basis to certify that the salary dollars charged to the NSF grant are reasonable and equitable
relative to the employee’s work activities on other sponsored projects and/or non-sponsored
responsibilities.

         The possibility of overcharging a NSF grant is especially relevant because UI certifies to
a dollar amount based on estimates made for each sponsored project and non-sponsored activities
before services are performed. Subsequently, if an employee devotes more effort on
non-sponsored activities than originally planned but still spends the same level of planned effort
on a sponsored project, the total salary costs for the sponsored project will decrease. Thus, a
certifying official needs to know the entire level of activities for each employee to correctly
attest to the salary amount charged to the sponsored project. In the situation where an individual


                                                 9
spends more effort on non-sponsored activities and the same planned level of effort on the
sponsored project, UI must reallocate an appropriate portion of the employee’s salary costs from
the sponsored project to non-sponsored activities; otherwise UI charges a disproportionate
amount of labor costs to the sponsored project.

        Furthermore, the risk for inequitable salary allocation to NSF grants increases when an
employee works on sponsored projects for different PIs. Specifically, different PIs would
confirm the employee’s salary charges to their sponsored projects without being aware of an
employee’s actual level of activity on other sponsored projects. We determined from our sample
that 9 of the 30 individuals reviewed, or 30 percent, worked for multiple PIs, thereby increasing
the vulnerability that UI labor costs were potentially misallocated to NSF sponsored projects.

Total Employee Work Activity Available But Not Provided to Certifying Officials

        While UI’s payroll distribution system has the capability through ARS to validate the
allocation of total employee labor charges to all sponsored projects and other activities on an
integrated basis, the University did not establish procedures requiring the ARS information be
provided and utilized by certifying officials during any phase of the labor confirmation process.
This occurred because UI believed such employee workload information was not needed for
proper PI certification of employee labor charges to sponsored projects. Further, officials stated
that ARS and other employee workload information was available online if certifying officials
chose to use such information.

        UI officials also noted that Federal regulations do not explicitly require certifying
officials to provide after-the-fact confirmation of labor charges to non-sponsored activities, only
the confirmation of sponsored labor costs is required. As such, the University was not required
to provide certifying officials with any information on employee effort devoted or salary charges
to non-sponsored activities. Therefore, UI reaffirmed their belief that its confirmation of salary
charges to each sponsored project individually is fully compliant with Federal standards.
However, the PI needs to be aware of total employee workload activities in order to verify the
accuracy of salary amounts charged to his or her sponsored projects. OMB standards expect the
salary charges allocated to a sponsoring agency to be accurate, thus if a PI lacks sufficient
information on which to base their certification, the process cannot be relied upon to meet the
Federal requirement for accurate labor charges.

Certification of Confirmation Reports Needs To Be More Timely

         Although Federal regulations do not specify when labor effort reports should be reviewed
and certified, UI officials should provide the after-the-fact confirmation of labor charges to
sponsored projects as close to the end of the reporting period as possible to help ensure its
reliability. Accordingly, the University’s established practice required the FY 2006 Expenditure
Confirmation Reports be approved and returned within 45 days of distribution for the first effort
reporting period and 30 days for the second period. The 45 and 30-day turnaround periods were
specified in the GCO transmittal letters distributing the Confirmation reports to the Departments.




                                                10
        UI is certainly to be commended for actions taken to ensure Confirmation reports were
reviewed and approved by certifying officials with first-hand knowledge of actual employee
effort devoted to Federally-sponsored projects and to track the return of approved Confirmation
reports from the Departments. At the end of each effort reporting period, GCO compiled,
generated, sorted, and distributed about 1,800 Confirmation reports to 168 different operational
units within the UI Departments. It manually created a database to generate the PI distribution
list and track the return of the completed Confirmation reports. Also, GCO officials stated that
periodic reminder notices were sent to follow-up on delinquent Confirmation reports using an
increasingly graduated scale to notify higher level management officials.

       However, for the 30 sampled employees, the audit found that UI officials certified 49 of
77 Confirmation reports late by 1 to 205 days beyond the established University turnaround time,
representing 61 percent of the NSF labor charges we tested. Of the late reports, two
Confirmation reports were certified seven months late. The chart summarizes how much time
beyond the established due dates officials took to approve the 49 late Confirmations.

          Schedule of Labor Confirmation Reports Approved Late and On Time

               Number of Days Late Beyond UI Established Due Dates

                                                     % of           NSF      % of
                                  Number of      Confirmations     Salary   Salaries
                 Days Late       Confirmations       Late         Charges    Late

                  1 – 30              24              31%        $193,912    24%
                  31 – 60             18              24%         224,728    28%
                 61 – 120              5               7%         44,393     6%
                 121 – 180             1               1%         14,804     2%
                 181 - 205            1               1%           8,328      1%

                Subtotal –
               Late Reports           49              64%        $486,165    61%


                                Confirmations Approved On Time
                                                     % of           NSF      % of
                                  Number of      Confirmations     Salary   Salaries
                                 Confirmations     On Time        Charges   On Time


               Timely Reports         28              36%        312,903     39%

                  Total
                 Reports              77                         $799,068

      In addition, UI did not establish time frames for compiling and distributing the
Confirmation reports after the end of each labor effort reporting period. While we found the


                                                 11
average 64 days taken in FY 2006 to generate and distribute the reports to be reasonable
compared to established time frames at other universities, sound internal control dictates that
clear written standards be established to ensure timely processes for certifying the significant
amount of labor costs UI charges to Federally-sponsored projects. Without written timeliness
standards, excessive preparation and distribution time for the Confirmation reports would not be
measurable and readily identifiable.

        Late certification of Confirmation reports for 61 percent of NSF salary charges we tested
increases the risk that such certifications are less reliable as time increases past the UI
established time limitations. Certifying officials primarily rely on their memory when reviewing
and certifying Confirmation reports since they are not required to track and maintain records of
an employee’s work activities. Oftentimes, PIs have multiple awards and many staff that they
are responsible for which increases the risk that their memory on the activities and amount of
effort worked by staff members will be less reliable as time increases past the UI established
turnaround period. For example, one UI researcher stated that he had five awards involving
twelve employees and students.

        While UI has communicated due dates for certifying and returning Expenditure
Confirmation Reports in transmittal letters, the University has not established formal written
policies for all aspects of its labor effort confirmation process to ensure timely after-the-fact
certification of labor charges to Federal grants. Specifically, the University needs to establish
formal timeliness standards for (a) GCO compilation and distribution of the Confirmation reports
at the end of each reporting period, (b) PI review and approval of the reports, and (c) follow-up
notices for delinquent reports to increasingly higher level management officials. Similarly, clear
accountability needs to be assigned to senior management officials, such as Department Chairs,
for timely PI certification of the Confirmation reports. Such senior officials would have more
leverage than Department administrative staff or GCO personnel for ensuring PI confirmations
within the University’s established due dates because such senior management officials would
have the responsibility for recommending faculty tenure and promotions. As such, they would
have more influence in getting PIs to respond positively to the requirements for completing
confirmations within the established certification period.

Independent Internal Evaluation of Labor Confirmation System Not Performed

        OMB Circular A-21 requires the University to provide for independent internal
evaluations to ensure the payroll distribution and labor effort reporting system is effective and
compliant with the OMB standards. Such an evaluation requirement is a key component of an
effective internal control environment and provides for monitoring the quality of performance of
established control activities over time. As circumstances change over the years, evaluations are
essential for determining if management objectives are being effectively and efficiently achieved
and bringing any weaknesses noted promptly to management’s attention for action.

        However, UI did not conduct the independent internal evaluations of its payroll
distribution system as required by OMB Circular A-21 standards. Such evaluations would have
likely disclosed the need to enhance the University’s internal control to provide for more timely
and effective processes for certifying Confirmation reports. While UI officials were aware of the



                                               12
evaluation requirement, they believed that the OMB Circular A-133 auditors included the
required evaluation as part of its annual audit. However, our review of the FY 2005 A-133 audit
working papers9 and discussions with the cognizant senior auditor manager disclosed that the
auditors did not perform a comprehensive systematic review of the labor effort reporting system
to evaluate its effective and full compliance with OMB requirements. Specifically, the A-133
auditors stated that while they documented UI’s internal control processes for the labor effort
confirmation system, they did not test the University’s compliance with the established controls.
In addition, a comprehensive evaluation of the system should have included testing of salary
charges to Federal awards to validate (i) UI’s Confirmation reports were approved by certifying
officials with suitable means of verification that the work was actually performed, (ii) the
certifications were timely based on the University’s established standards, and (iii) the reported
level of effort on the Confirmation reports was accurate based on employee interviews.

Other Matters

Questioned Costs for Activity Outside the Scope of NSF Grant

During our review, we questioned $6,329 of salary and associated overhead costs that a xxxxxx
xxxxxxxx       xxx, improperly charged for teaching a course that was not a requirement of the
NSF grant. This occurred because UI included a description of the course in the annual NSF
grant progress report. Since NSF officials did not raise a concern, UI believed the instructor’s
salary costs were an appropriate charge. However, pursuant to Federal requirements, costs are
only allocable to a sponsored project when “. . . incurred solely to advance the work under the
sponsored agreement.” Specific details of the total amount of questioned costs follow:

                                    Total Questioned Salary Costs

       Sample NSF Grant Number                    Salary      Fringe      Indirect     Total
       Number                                     Costs       Costs       Costs        Questioned
                                                                                       Costs
           1      xxxxxxxxxxxxxxxxx,              $ 3,392      $ 1,140     $ 1,797     $       6,329


Quantifiable Standards to Define Level of Precision Needed for Reliable Labor Certifications

        For certification of salary charges to sponsored agreements, paragraph J10.b.(1)(c) of
OMB Circular A-21 states that “A precise assessment of factors that contribute to costs is not
always feasible, nor is it expected. Reliance, therefore, is placed on estimates in which a degree
of tolerance is appropriate.” Because the OMB A-21 provision does not quantitatively define
“precision” or “tolerance”, each institution may make reasonable judgments regarding the level
of precision to be permitted between the salary charges to sponsored agreements and certified
effort when it performs the required after-the-fact certification of labor charges to sponsored
projects. Therefore, it is essential for an institution to establish a range or variance within which
they expect the documented labor effort to fall. Without quantifiable measures, UI certifying

9
       The FY 2005 report was the most recent A-133 audit report completed at the time of our onsite audit work.


                                                      13
officials lack a basis to determine how much an employee’s actual effort can differ from their
certified effort before a cost transfer is required to be processed in the University’s labor effort
reporting system. Therefore, UI should establish a “precision” or “tolerance” range of accuracy
to be used for certifying the reasonableness of labor charges allocated to Federal sponsored
agreements. At some universities, the acceptable variance has been established at five percent. 10

Conclusions

         UI needs to improve its internal control processes to ensure the reliability of the
after-the-fact confirmation of actual salary charges to Federal awards. While OMB Circular
A-21 establishes certain basic requirements for a payroll distribution system, there are many
areas where the Circular does not prescribe specific and quantifiable standards. Accordingly, it
is important for the University to establish its own control procedures and processes to ensure the
effectiveness and integrity of its payroll distribution and labor effort confirmation process to
fulfill the overall intent of the OMB requirements. Sound internal control requires the University
to periodically evaluate its control mechanisms to determine if management objectives are being
effectively and efficiently achieved as circumstances change over the years. Internal control is a
dynamic process to meet an entity’s changing needs, thus monitoring and evaluation tools are a
key control component for ensuring proper UI stewardship of Federal grant funds.


Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

1. Work with UI to enhance its internal control structure to provide for an effective and timely
   labor certification process for ensuring the reliability of the after-the-fact confirmation of
   actual salary charges to Federal awards. At a minimum, the University should:

     a. Ensure that certifying officials are provided and utilize total employee workload
        information during the confirmation process to ensure the reasonableness of labor
        charges allocated to each Federally-sponsored project.

         UI Response

         UI believes its current labor confirmation process provides PIs adequate documentation
         and access to departmental resources needed to properly analyze and confirm labor costs.
         Furthermore, the University noted the current process was reviewed and approved by

10
         A March 2007 report entitled “Policies and Practices: Compensation, Effort Commitments, and
Certification,” issued by the Council on Governmental Relations, stated that the 5-percent standard used by some
universities was based on a 1979 interpretation by the prior Department of Health, Education, and Welfare stating
“As a general rule of thumb, a change applicable to a given project or activity of 5% or more of an employee’s total
effort would warrant an adjustment by the employee or the official.”



                                                         14
   both NSF and its cognizant audit agency in 1993 pursuant to recommendations from a
   prior NSF audit report. Nevertheless, UI does agree with the audit recommendation and
   will provide PIs access to total employee workload information for academic and
   graduate appointments through its new web-based electronic labor confirmation system
   that is currently under development.

   Auditor’s Comments

   UI’s proposed corrective actions are a positive step to updating a labor confirmation
   process that was established 15 years ago. However, because UI is not providing the
   certification official with each employee’s total workload on monthly grant financial
   reports, the University needs to strengthen its internal controls by developing a procedure
   clearly requiring PIs to access and use the total employee workload information when
   confirming labor costs on Federally-sponsored projects. In terms of labor costs,
   certification officials are currently only approving total aggregate labor costs for all
   employees charging the Federal grant during the Confirmation report period.
   Certification officials could unintentionally misallocate labor costs because they are not
   aware of the total employee workload information. In addition, until UI’s new web-
   based electronic labor confirmation system is implemented, the University should ensure
   that such employee workload information is currently made available and used by PIs
   when confirming labor costs. Therefore, we reaffirm our audit recommendation.

b. Institute formal written standards to improve the timeliness for review and approval of
   Expenditure Confirmation Reports as follows:

      i.   Establish the maximum number of days after the end of the labor effort reporting
           period to compile and distribute the Confirmation reports to the Departments for
           PI certification.

     ii.   Establish the maximum number of days after Confirmation reports are distributed
           for PI review and approval.

    iii.   Establish procedures and time frames for reminder notices to follow-up on
           delinquent Confirmation reports using an increasingly graduated scale to higher
           level management officials.

    iv.    Assign specific UI senior management officials, such as Department Chairs,
           accountability for timely PI review and approval of Confirmation reports.

   UI Response

   UI agrees to provide additional guidelines in its policies and procedures for timely
   distribution, review and approval, and follow-up of Confirmation reports and for
   assigning accountability for such reviews.




                                           15
       Auditor’s Comments

       Once implemented, UI’s proposed corrective actions should address our audit
       recommendation; provided its new written policies and procedures establish explicit time
       frames for timely confirmation of labor costs to Federally-sponsored projects and assign
       clear accountability for such reviews to appropriate senior UI management officials.

2.   Establish a formal written requirement that explains when and how often to conduct an
     independent internal evaluation of the payroll distribution and labor effort reporting system
     to ensure its effectiveness and full compliance with Federal, NSF, and University standards.
     Such a requirement should include procedures to ensure an effective and systematic review
     that will identify reasons for any deficiencies and make appropriate recommendations,
     identify the specific UI office responsible for performing the evaluation, and how often such
     an evaluation should be conducted.

       UI Response

       UI will continue to include the payroll distribution and effort reporting system in the
       Office of University Audits annual risk assessment process. The frequency of the audit
       will be based on criteria used during the risk assessment process such as changes to the
       system, regulations, or personnel; feedback received from senior management; changes in
       the industry; and timing since the last review.

       Auditor’s Comments

       UI’s response did not fully address the intent of the audit recommendation. While it is
       appropriate to have the Office of University Audits conduct the independent internal
       evaluation and to use its annual risk assessment process in determining when to conduct
       the evaluation, UI needs to establish an explicit requirement in its written labor effort
       reporting policy and procedures for the Federally-required evaluation. Therefore, we
       reaffirm the audit recommendation.

3.   Resolve the questioned salary costs and associated fringe benefit and indirect costs totaling
     $6,329. (see details on page 13)

       UI Response

       UI has removed the questioned salary costs and associated fringe benefits and indirect
       costs from the applicable NSF grant expenditures.

       Auditor’s Comments

       UI’s actions are fully response to the audit recommendation. During the audit resolution
       process, the University should provide NSF with the journal entry documenting removal
       of the questioned grant costs.



                                               16
                                                   Appendix

University of Illinois’ Comments to Draft Report




                      17
18
19
20
